<html>
<title> - [H.A.S.C. No. 114-105]WORLD WIDE THREATS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 114-105]
 
                           WORLD WIDE THREATS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 2, 2016


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              ____________
                              
                              
                    U.S. GOVERNMENT PUBLISHING OFFICE
99-649                       WASHINGTON : 2017                    

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>  
                      
                     
                     
                     
                     COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Committee 
  on Armed Services..............................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Marrs, Maj Gen James, USAF, Director for Intelligence, J-2, Joint 
  Staff..........................................................     5
Stewart, LtGen Vincent R., USMC, Director, Defense Intelligence 
  Agency.........................................................     2

                                APPENDIX

Prepared Statements:

    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    39
    Stewart, LtGen Vincent R.....................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [Response provided was classified and retained in committee 
      files.]

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................    71
    Mr. Garamendi................................................    71
    Mr. Moulton..................................................    72
    Mr. Wilson...................................................    71                       

                          WORLD WIDE THREATS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 2, 2016.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    This year, as we did last year, the committee meets today 
to get an assessment of the threat environment in which our 
military personnel are asked to operate. I think it is 
important that we understand not only the threats that are out 
there today, but the general direction of trends as we make 
decisions about this year's Defense Authorization Act.
    If we just think about some of the things that have changed 
since we had this hearing last year, we can remember the 
enormous amount of time and effort spent about Russia's 
activities in Ukraine. Of course, those gains have been 
consolidated, and now there is the most significant military 
presence in the Middle East that they have had since the 1970s.
    Meanwhile, ISIS [Islamic State of Iraq and Syria] has 
launched attacks, both in Europe and the United States, and it 
has spread to more countries including, notably, Libya and 
Afghanistan, as well as others. There have been reports which 
have been confirmed in other congressional hearings about ISIS 
use of chemical weapons on the battlefield.
    Meanwhile, the Iranians continue to be provocative to the 
point of even detaining U.S. sailors recently. North Korea 
launches missile tests and nuclear tests and sticks its finger 
in the eye of the world. And meanwhile, China is continuing to 
develop its islands out of the Pacific Ocean and has begun to 
install, according to reports, military aircraft and surface-
to-air missiles on those islands. So needless to say, the world 
is not getting any simpler, and the world is not getting any 
less dangerous.
    I really appreciate our witnesses being here today to help 
explore these issues. I would remind members that this 
obviously is an open, unclassified session. Immediately upon 
its conclusion we will go into a classified session with the 
same witnesses, so if you have questions that required a 
classified answer, obviously withhold and we will do that in 
the classified session.
    Before turning to our witnesses, I would be pleased to 
yield to the distinguished gentlelady from California for any 
comments she would like to make.

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you, Mr. Chairman.
    I ask unanimous consent that the ranking member's statement 
be entered into the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 39.]
    Mrs. Davis. We look forward to Ranking Member Smith 
returning, hopefully within a few weeks, absolutely. And it has 
been an honor to try and help out in this role.
    As we know, and, Generals, you are here to discuss again 
how complex and a dangerous place the world is today, 
unpredictable. And we know that there are at least five key 
national security challenges that are driving defense planning 
and budgeting. All of them key, all of them critical, and we 
look forward to your comments today.
    It is so important for us to receive clear objective and 
comprehensive assessments from the defense intelligence 
community. A deep and clear understanding of these threats, and 
the trends and developments that drive them, is fundamental to 
the committee's work in shaping the defense budget, and in 
helping the Department of Defense and the rest of the national 
security establishment perform their duties effectively.
    So we look forward to your comments. I know I would like to 
discuss our priorities, and how perhaps those are changing. We 
certainly acknowledge your difficult and challenging work. And 
thank you again for being here today.
    Mr. Chairman, I yield back.
    The Chairman. I thank the gentlelady.
    We are pleased to welcome back before the committee, 
Director of the Defense Intelligence Agency, Lieutenant General 
Vincent Stewart, and welcome, I believe for the first time, at 
least in this capacity, the Director of Intelligence for the 
Joint Staff, Major General James Marrs, our witnesses today. 
Thank you both for being here.
    Without objection, your complete written statements will be 
made part of the record, and we would be pleased to hear any 
oral comments you would like to make at this time. General 
Stewart.

STATEMENT OF LTGEN VINCENT R. STEWART, USMC, DIRECTOR, DEFENSE 
                      INTELLIGENCE AGENCY

    General Stewart. Chairman Thornberry, Congresswoman Davis, 
members of the committee, thank you for this opportunity to 
provide Defense Intelligence Agency's assessment of the global 
security environment and the threats facing the Nation.
    Mr. Chairman, my statement for the record details a range 
of multifaceted challenges, adversaries' threats, foreign 
military capabilities, and transnational terrorist networks. 
Taken together, these issues reflect the diversity, scope, and 
complexity of today's challenges to our national security.
    In my opening remarks, I would like to highlight just a few 
of these threats, which represents our five focus areas in all 
warfighting domains: space, cyberspace, air, surface, and 
subsurface.
    Turning first to the current threat from ISIL. With the 
coalition engaged against the Islamic State of Iraq and the 
Levant, DIA [Defense Intelligence Agency] is helping the 
warfighter and our policymakers better understand both the 
ideology and the capabilities of ISIL. ISIL, as well as like-
minded extremists, are born out of the same extreme and violent 
Sunni Salafi ideology. These Salafi jihadis are determined to 
restore the caliphate, and as they have shown, are willing to 
justify extreme violence in their efforts to impose their 
social order on others.
    As the Paris attacks demonstrated, ISIL has become the most 
significant terrorist threat to the United States and our 
allies. In 2015, the group remained entrenched in Iraq and 
Syria and expanded globally. Spectacular external attacks 
demonstrate ISIL's relevance and reach and are a key part of 
their narrative.
    ISIL will probably attempt to conduct additional attacks in 
Europe, and attempt to direct attacks on the United States 
homeland, in 2016. ISIL's foreign fighter cadre is core to its 
external attack capability, and a large number of Western 
jihadists in Iraq and Syria will pose a challenge for Western 
security services.
    On the ground in Syria and Iraq, ISIL continues to control 
large swaths of territory. In 2015, coalition strikes impeded 
ISIL's ability to operate openly in Iraq and Syria, curtailed 
its use of conventional military equipment, and forced it to 
lower its profile. In 2016, the growing number of anti-ISIL 
forces, and emerging resource shortfalls, will probably 
challenge ISIL's ability to govern in Iraq and Syria. However, 
the group probably will retain Sunni Arab urban centers.
    Turning to Afghanistan: In their first full year in the 
lead, Afghan Security Forces increasingly conducted independent 
operations; however, these forces struggled to adapt to a lack 
of coalition enablers and at high operational tempo, which led 
to uneven execution of operations. As a result, insurgents 
expanded their influence in rural areas, limiting the extension 
of government control. The deployment of Afghan specialized 
units and their enablers will be necessary to continue securing 
key population centers in Afghanistan.
    Russia: Russian military activities continue at 
historically high levels. Moscow continues to pursue aggressive 
foreign and defense policy, including conducting operations in 
Syria, sustaining involvement in Ukraine, and expanding 
military capabilities in the Arctic. Last year, the Russian 
military continued its robust exercise schedule and 
aggressively, and occasionally, provocative out-of-area 
deployments. We anticipate similar high levels of military 
activities in 2016.
    Turning to China: China is pursuing a long-term 
comprehensive military modernization program to advance its 
core interests, which include maintaining its sovereignty, 
protecting its territorial integrity, and projecting its 
regional influence, particularly in the South China Sea. In 
addition to modernizing equipment and operations, the People's 
Liberation Army has undergone massive structural reforms, 
including increasing the number of navy, air force, and rocket 
force personnel, establishing a theater joint command system, 
and reducing their current seven military regions down to five 
joint theaters of operations.
    China has the world's largest, and most comprehensive, 
missile force and has prioritized the development and 
deployment of 125 regional ballistic missiles and cruise 
missiles to expand its conventional strike capabilities against 
the United States forces in the region. And they field an 
antiship ballistic missile, which provides the capability to 
attack U.S. aircraft carriers in the western Pacific Ocean. 
China also displayed a new intermediate-range ballistic missile 
capable of striking Guam during its September 2015 military 
parade in Beijing.
    In North Korea: North Korea's nuclear weapons program is 
evolving, and evolving ballistic missile programs are a 
continuing threat. In January, North Korea issued a statement 
claiming that it had successfully carried out a nuclear test, 
and last month, North Korea conducted another space launch.
    The Democratic Republic of Korea displays of a new modified 
road-mobile intercontinental ballistic missile, during their 
recent parade, and its 2015 test of a new submarine launch 
ballistic missile capability, further highlights Pyongyang's 
commitment to diversifying its missile forces and nuclear 
delivery options. North Korea also continues efforts to expand 
its stockpile of weapons-grade fissile material.
    In space, China and Russia increasingly recognize the 
strategic value of space and are focusing on diminishing our 
advantage with the intent of denying the U.S. use of space in 
the event of conflict. Both countries are conducting 
antisatellite research and developing antisatellite weapons, 
making the space domain increasingly competitive, contested, 
and congested.
    In cyberspace, DIA remains concerned about the growing 
capabilities of advanced state actors such as Russia and China. 
They target DOD personnel, networks, supply chain, research and 
development, and critical infrastructure information in the 
cyber domain. Iran and North Korea also remain a significant 
threat to conduct destructive cyberattacks. Non-state actors' 
use of cyberspace to recruit, propagandize, and conduct open-
source research remains a significant challenge.
    Mr. Chairman, the men and women of your DIA are providing 
unique defense intelligence around the world and around the 
clock, to the warfighters, the defense planners, the defense 
acquisition community, and policymakers to provide warning and 
defeat these and other threats.
    I look forward to the committee's questions.
    [The prepared statement of General Stewart can be found in 
the Appendix on page 41.]
    The Chairman. Thank you, sir.
    General Marrs.

     STATEMENT OF MAJ GEN JAMES MARRS, USAF, DIRECTOR FOR 
                 INTELLIGENCE, J-2, JOINT STAFF

    General Marrs. Good morning, Chairman Thornberry, Mrs. 
Davis, and distinguished members of the committee. Thank you 
for the opportunity to represent the intelligent equities of 
the Joint Staff and combatant commands at this hearing.
    As the primary military intelligence adviser to the 
Chairman of the Joint Chiefs of Staff, I am responsible for 
providing daily intelligence information to the Chairman, his 
staff, and many senior defense and national decision makers. 
Additionally, as the J-2, I also conduct intelligence 
operations, plans, and policy assessments, and make 
recommendations to the Chairman, the Joint Staff, and combatant 
commands.
    I share Lieutenant General Stewart's concerns regarding the 
global threats we face and look forward to taking your 
questions.
    The Chairman. Thank you, sir.
    Let me just ask each of you a relatively simple question. 
Our core responsibilities under the Constitution are to provide 
and support, build, and maintain the military forces that are 
necessary for the defense of the country. And a lot of the 
decisions we make affect not just the military today but the 
military tomorrow, 3, 5 years out. So the trends, the way 
things are moving are important for us to try to keep in mind. 
Nobody can predict the future, but the general direction of 
things.
    So my question to you is, what is or are the primary trends 
that you see in the threat environment that we should take into 
account in making decisions about military personnel and pay 
and benefits and weapons and equipment and so forth? What are 
those trends that you think are so significant that we have got 
to keep those in mind as we make the program-by-program 
decisions that it is our responsibility to make? General 
Stewart.
    General Stewart. Mr. Chairman, I will start, and General 
Marrs will correct me when I am done.
    We talk about the complexity in the world today, but we are 
looking at breakdown of nation-states as we knew them in the 
past. We are talking about regions where nation-states are 
fracturing, and we are uncertain how those nation-states will 
act after conflict is done. We are seeing resurgence of Russian 
activity, as I mentioned earlier, where Russia intends to exert 
its influence on the global stage and will challenge our 
interests wherever those interests are globally.
    China, again, continues to push the envelope in reclaiming 
territory, disputed territory in the South China Sea that will 
complicate our ability to maneuver and conduct operations in 
the Pacific. These terrorist organizations, whether it is Al 
Qaeda or it is ISIL, continue to push the idea that they will 
replace the international order as we know it with an extreme 
ideology.
    So whether it is resurgent Russia in Europe, whether it is 
a rising Iran in the Middle East and the conflict between Iran 
and the Saudis in the Middle East or it is a competition with 
China in the Pacific, there are just a range of global actions 
that we simply are--we have not seen the likes of which, in 
certainly my time as I have served.
    So the world is far more complicated, it is far more 
destabilized, it is far more complex than at any time that I 
have seen it, and the outcomes in the next several years will 
be decisive for our Nation.
    And, Jim, I don't know if you have got----
    The Chairman. Well, General Marrs, before you respond, what 
I heard then was the breakdown of the liberal order and the 
nation-states system is one of the dominant trends that has a 
number of repercussions that we have to keep in mind as we 
think about military capability. Now, I may have heard it--but 
that is what my ears heard.
    General Stewart. That is correct, Mr. Chairman.
    The Chairman. Okay. All right. General Marrs.
    General Marrs. Thanks, Mr. Chairman.
    I think I would underscore two things that General Stewart 
mentioned: First, on the non-state side of the house, I think 
the continued challenge of ungoverned or weakly governed areas 
is something that absolutely is facilitating the growth of 
these violent extremist organizations. That combined with the 
relative ease of access of technology, and specifically cyber 
technology, that allows these organizations to rather quickly 
develop linkages.
    What I would say on the state side of this is that the real 
challenge, I think, is the volume of capabilities we are seeing 
being developed that really threaten our competitive advantage. 
And principally, what we are seeing in Russia and China is just 
a breadth of capabilities from strategic systems to anti-
access/area denial to even, I would say, a growing adeptness at 
operating sort of just short of traditional military conflict 
that is posing a significant challenge in the future.
    The Chairman. Okay. I am repeating this back to you just to 
make sure I understand. So among the things I think you said 
are erosion of our technological superiority, and that is us, 
especially versus Russia and China; and then these new forms of 
warfare conflict are another part of that, at least on the 
state side, but actually ISIS employs them as well through 
their social media and other aspects. Is that the gist of it?
    General Marrs. That is accurate, sir.
    The Chairman. Okay.
    General Stewart. If I could. Look at it in three terms: Our 
resurgence of competitive nation-states that compete against 
our interests; breakdown of traditional nation-states, 
generates ungoverned space, generates conflict that we are not 
quite sure how that will play out; and then the ability for 
emerging states or even non-state actors to have access to 
disruptive technology that is readily available across a wide 
range of networks.
    So those three things combined leads to a trend that has 
manifested itself as a very, very unstable condition in our 
world today.
    The Chairman. Which makes our job complex, because we have 
got to prepare for everything from nuclear war down to hybrid 
and the kind of little green men sort of situations where you 
don't really know what is happening. And that is the challenge 
that you all face as well.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you, again, for being here.
    Given what you have just stated, could you share with us 
how we then reorder, if at all, our intelligence priorities 
framework? What are we doing differently? Clearly during the 
Cold War intelligence collection was important. That obviously 
has been shifted in many ways to counterterrorism for a number 
of years. So what is changing, if at all? Why? And what should 
we be doing about it in terms of resources?
    General Stewart. So none of us in the Intelligence 
Community like to set priorities because we will invariably get 
it wrong. The area that we think is stable will turn out to be 
unstable. But I will tell you what I have done. We have got 
five priorities that I consider no-fail mission for the defense 
intelligence enterprise.
    How do we win the current fight, primarily focused against 
those transregional terrorist threats, whether they be in Iraq, 
Syria, or in Afghanistan. That is priority number one.
    The next set of priorities are focused on these nation-
states who will compete with us on the globe. Russia, as a 
dominant nuclear-armed challenge to our interest around the 
globe. Iran, how will Iran behave as it comes out of a sanction 
regime, has increased revenues, continues to develop missile 
capability, competes with its neighbors in the region. North 
Korea, we have seen the level of activity in North Korea, 
whether it is nuclear missile technology, intercontinental or 
medium-range ballistic capability, a regime that can best be 
described as unstable, certainly uncertain what its intentions 
are.
    And longer term, what will China and China's role be on the 
international order. China presents itself as a peaceful rise 
to regain its status on the international stage. We are not so 
certain that that rise will be peaceful because of some of the 
things that it is doing in the Pacific and globally.
    So those are our five top priorities. There are a whole 
series of contingencies that we are still thinking about, but 
if you ask me today where I was putting my resources, those 
were the top five. And hopefully, General Marrs and the J-2 and 
the rest of the folks are thinking about some of the lesser 
priorities so that we are not surprised by something that 
happens on the stage.
    Mrs. Davis. General Marrs, do you want to comment?
    General Marrs. And I think the one thing I would add is 
more from a process perspective, so the focus is absolutely 
where General Stewart said it is. What we are working, along 
with DIA and USDI [Under Secretary of Defense for 
Intelligence], is on what is called an integrated defense 
intelligence priorities framework. And that is a project that 
has been underway over the last year, and it is basically to 
set in place a formalized mechanism where we, as a Department, 
can better articulate what the defense intel priorities are and 
make sure that those are clearly linked to the national level 
framework.
    Mrs. Davis. Thank you. And does that allow for some 
reordering within that? I guess it is the out-of-the-box 
thinking. And as an example, where would you see that where you 
actually had shifted in seeking something that you hadn't 
expected within that framework?
    General Marrs. So it is probably premature to say that 
about this process that is just evolving right now. So 
literally, we are working with USDI on a version 1.0 of this 
capability that will see or be unveiled later this spring.
    But I will say that, absolutely, a big part of what we have 
to do is, while we are mindful of these larger strategic 
challenges out there, that we still have a team that has to 
play position around the world and be thinking about the things 
that aren't in the paper right now.
    And I am confident that the team has a good approach for 
that, both in terms of how we as defense or intel professionals 
think about warning, and really that is our part of the trade 
craft that helps to avoid surprise. And also at the national 
defense or at the ODNI [Office of the Director of National 
Intelligence] level, thinking about tradecraft in the sense of 
what has been called in the 2014 national intelligence strategy 
``anticipatory intelligence.'' So it is even at that level 
trying to figure out how we better make room for that in our 
daily activities.
    General Stewart. If I could add though, given the five 
priorities, the five focus areas I talked about, we have done a 
series of seminars to look at those key areas, and think our 
way through, not only from the country specific but the 
regions, what we know today, and really start thinking about 
what are some of the black swan events that we are not all 
thinking about, the nonlinear events that could unfold.
    And so we are putting in place a process where we think 
about alternative analysis, black swan events, awfully hard to 
call. It is interesting to note that one of the events that we 
looked at in the Middle East was what would happen if the Mosul 
Dam collapsed.
    And we are hearing increasingly now this discussion about 
the viability of the Mosul Dam and what that would mean. That 
is something that is nontraditional intel kind of thinking, but 
it would have significant implications if that event occurred.
    So we have got some processes in place where we are 
thinking about alternative analysis and red teaming so that we 
are not caught blind looking at Russia, and Iran, and North 
Korea, and miss some event.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    Mr. Forbes [presiding]. Thank you, Mrs. Davis.
    The Chair now recognizes himself for a series of questions.
    General Stewart, General Marrs, first of all, thank you 
both for being here.
    General Stewart, I would never instruct a general what to 
do but I am going to request, especially with those three 
stars, that you pull that mike just a little closer to you so 
that we can hear you even better. We are proud of your service. 
And I was looking at your resume. I wished I had time to read 
it all in the record, but through all of those over 35 years, I 
guess now--how many years total do you have?
    General Stewart. I think I am starting my 35th year.
    Mr. Forbes. We just are so proud of what you have done.
    As the director of the Defense Intelligence Agency, one of 
the things that we are doing now to everyone that appears 
before this committee based on some information we got at our 
retreat for the committee a week or so ago is, did you have to 
submit your statement for the record to any individual or 
entity prior to submitting it to us today?
    General Stewart. Not for review. We certainly submit that, 
so that my bosses are aware of what I submitted. But not for 
review, not for modification, not for changes.
    Mr. Forbes. Okay. So who do you submit it to?
    General Stewart. Both the DNI [Director of National 
Intelligence] and USDI.
    Mr. Forbes. Okay. Now, the other question I would ask is, 
we looked at this--in your best personal, professional military 
judgment as well as the written statement that is here, as I 
understand from your written statement, you are to give us an 
assessment of the global security environment and to address 
the threats facing the Nation.
    As Chairman Thornberry mentioned, sometimes we are looking 
directionally because it is hard for us just to take a snapshot 
of today. But if we were going back to, let's say, the 
beginning of this decade--we could pick any other time that you 
think would be preferable, but let's begin in 2010--if I were 
to ask you, would that assessment and security environment and 
threats facing the Nation, is it better today or worse today 
than it was in 2010?
    General Stewart. I would assess it is far more complex 
today than it was in 2010. The things I have outlined, 
breakdown of nation-states, conflict in region, reemergence of 
competitive peers, far more complex, and I would submit more 
dangerous than it was in 2010.
    Mr. Forbes. And to help us with our colleagues when we are 
trying to get dollars for defense, if we were to ask you to 
give me a percentile figure from 1 to 10, 1 being no change, 
10, let's say, being an alarming change, where would you peg it 
along that continuum between 1 to 10, between let's say 2010 
and today?
    General Stewart. Now, that is not real good math here, but 
I would probably put it in the five or six range.
    Mr. Forbes. Five or six range.
    General Stewart. Yes, sir.
    Mr. Forbes. Now, the other thing we are always looking at 
too is our ability to forecast what we think these things are 
going to get worse or better. So let's go back to 2010 because 
we started making a lot of cuts to national defense back around 
2010, 2011, 2012. Was this threat assessment that has changed, 
as you indicated to a five or six, along that continuum, were 
they predicted at that particular point in time, or were these 
surprises to us?
    General Stewart. There were certainly lots of indications 
of Russian military modernization. There is certainly lots of 
indication of China military modernization, the reclamation 
effort. ISIL was not a dominant theme, but Al Qaeda was 
certainly still a threat. So I don't know that any of these are 
large surprises. The morphing of Al Qaeda into ISIL probably 
took some elements by surprise, but all of the pieces were 
there.
    So much of the things that we are seeing today, we saw the 
precursors of those things in 2009, 2010, 2011, and have now 
just manifested themselves on the international stage. So it is 
hard for me to call them surprises when there are lots of 
indicators there in the past.
    Mr. Forbes. So then just to sum up, basically the 
assessment of the global security environment on the threats 
facing our Nation today have gotten about a 6 on a 1-to-10 
scale in terms of difference between no change and alarming 
change. And according to your best assessment, most of those 
were predictable probably at the beginning of the decade as we 
went into this?
    General Stewart. I think there are great philosophers 
somewhere out there that said prediction is particularly 
difficult especially when it is about the future. So I think 
there are certainly some trends there that would indicate that 
we would be headed for troubling times if we did not reverse or 
counter.
    A growing Russian military modernization, a more assertive 
and aggressive China in the Pacific, the breakdown of some of 
these states in the Middle East, the competition between Iran 
and Saudi Arabia, the possibility that ISIL would establish or 
attempt to establish the caliphate; all of those precursors 
were there. They have just now gone full blown in the last 3 to 
5 years.
    Mr. Forbes. And I would concur with your assessment, and I 
think our big concern is that, that is why many of us were so 
puzzled that we began cutting national defense so much over 
this decade when we could have predicted pretty much this kind 
of alarming war we are now facing.
    The Chair now recognizes Mr. Langevin for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    General Stewart and General Marrs, welcome. Thank you for 
your testimony before this committee today as we help to shed 
light on some of the most dangerous threats that are facing the 
Nation around the world today.
    General Stewart, I will start with you. I thought that was 
a very insightful analysis in terms of the challenges we face, 
in terms of resurgence of nation-states, breakdown of some 
traditional states, and the rise of destructive technologies.
    Can you give the committee a sense of how you are properly 
organizing and resourcing the Defense Intelligence Agency to 
both better understand these threats and understand where they 
are going in the future?
    Maybe some specific examples, so that we understand what 
the outcomes of these trends are going to be, how they will 
challenge the United States going forward, and how we are 
prepared to counter those threats?
    General Stewart. Following the lead of my predecessor, you 
know, we have organized, reorganized the Defense Intelligence 
Agency along integrated intelligence center lines. That allows 
us to focus on regional challenges and give a center director 
all of the authority to work with the combatant commands to 
understand the many challenges in that region. That is a key 
foundational portion of what we have done to get a better sense 
of the challenges that we face.
    We have laid on top of that an architecture, at least we 
are building an architecture. We probably refer to it as ICITE 
[intel community information technology environment], that will 
allow us to use a cloud-based architecture to move content, 
make content available to the analysts wherever they are in the 
enterprise.
    That, I think, will be very significant in making 
information available and then using some big data analytic 
tools to help us to see these trends and represent those trends 
in a more timely manner. That is a very important next step.
    And then leveraging or working closely with our partners, 
our international partners, so that when we understand we have 
shortfalls or risk, we can use our partners to cover, to 
mitigate some of those risks or shortfalls. I do not have 
enough capacity to cover the globe. I will not be able to cover 
every contingency and every crisis given the structure that we 
have today, which is why we focus primarily on those five areas 
that I have talked about.
    But we are doing all the things process-wise, 
organizational-wise, architectural-wise, command and control-
wise, to make sure we have the best information ready to 
deliver to our policymakers. And anything this committee can do 
to help increase our capacity would be greatly welcomed.
    Mr. Langevin. Thank you, General.
    So among the things that you touched on and one of the 
things that concerns me the most, of course, is the rise of 
destructive technologies. And clearly, none can be greater than 
the cyber threats that we face. And how do you feel we are 
positioned in terms of our ability to understand our 
adversaries' cyber capabilities, and do you feel that we are 
properly resourced to defend against those threats?
    General Stewart. We are actively building back the analytic 
capability to understand adversaries' cyber capabilities. So we 
are building that back. We have made some investments to get 
some analysis in that space.
    Thinking about the cyberspace, that domain, the ability to 
counter activities in that space from kinetic actions, which 
requires a level of analysis that just find the nodes that we 
could defeat kinetically, all the way through the more discrete 
cyber, understanding key nodes, key networks, key routers, key 
switches. That requires an exquisite level of intelligence that 
we have not invested in over the last several years.
    So we are starting to build those pieces back now. That 
will take us a little bit of time. The fact that we are focused 
on those key threats, key actors, Russia, China, North Korea, 
Iran, will help us, but it won't position us to deal with the 
non-state or the emergent actor in that space.
    Mr. Langevin. And General, do you believe that CYBERCOM 
[Cyber Command] should be its own independent COCOM [combatant 
command], and how might this benefit our cyber operations 
worldwide?
    General Stewart. I haven't really thought about that 
question, to be honest. And I am hesitant to go there, because 
I know that Admiral Rogers, the commander at U.S. Cyber 
Command, has an opinion on that.
    Mr. Langevin. We just want your opinion.
    General Stewart. So I will just say at this point, CYBERCOM 
needs the relationship that it has with NSA [National Security 
Agency] far more than NSA needs CYBERCOM. I don't know that 
CYBERCOM could be effective and carry out its mission without 
that very close relationship, integral, integrated relationship 
that it currently has with NSA. It would have to build 
significant capacity to understand the threats and counter 
those threats, and I think that would be very costly in the 
near term.
    Mr. Langevin. Thank you both.
    Chairman, I will yield back.
    Mr. Forbes. Gentleman yields back.
    Gentleman from South Carolina, Mr. Wilson, is recognized 
for 5 minutes.
    Mr. Wilson. Thank you, Chairman Forbes.
    And thank you General Stewart, General Marrs, for being 
here today.
    And General Stewart, I appreciate you citing concerns about 
maintaining our technological edge and evolution of 
unconventional warfare. This is a focus of the Emerging Threats 
and Capabilities Subcommittee. I have the privilege of working 
with Congressman Langevin on these issues, and we look forward 
to working with you in the future to address that.
    And also, General, Jim Clapper, the Director of National 
Intelligence, recently discussed potential threats being posed 
by advancements in biotechnology, including an ability to edit 
human genes, so-called gene editing. I am concerned about the 
types of technologies falling into the hands of terrorist 
groups or even lone actors.
    Can you describe for the committee the national security 
threats being posed by these and similar biotechnologies.
    General Stewart. I am always hesitant to talk about 
sequencing a genome. Could we take this to the closed hearing, 
if that is okay?
    Mr. Wilson. Be happy to.
    General Stewart. Because I don't want in this setting to 
talk about either our capabilities or an adversary's effort in 
this space.
    Mr. Wilson. I'd be happy to.
    And again, thank you for your extraordinary service. I did 
represent Parris Island, so I have a deep affection. My late 
father-in-law was one of you, a marine.
    And General Marrs, with your recent experience as U.S. 
Cyber Command director of intelligence prior to your post as 
Joint Staff, could you please explain what deliverables can be 
expected from the Defense Innovation Unit Experimental project.
    And Secretary Carter has established a program between the 
military's innovators, cyber warfare operators, and private 
sector innovators, such as Silicon Valley. What technologies or 
tactics should be developed to keep intel-driven operations in 
the lead against any enemy with regard to cyber warfare?
    General Marrs. So, sir, I think the specific focus of that 
program is still evolving, but it really, for me, comes down to 
how do we better harvest the volume of information that exists 
out there, and figure out innovative ways to basically make 
sense of that cloud and apply it to keeping our networks safe.
    Mr. Wilson. Well, we really appreciate your leadership.
    And also, General Marrs, the Office of the Director of 
National Intelligence has reported that roughly 30 percent of 
the former Guantanamo detainees are confirmed or suspected and 
reengaging in terrorism killing American families. What trends 
has the DIA observed in detainee recidivism and the capacity 
and willingness in past practices of foreign countries 
receiving detainees to take appropriate steps to mitigate the 
risks that they would reengage in terrorism to threaten and 
kill American families?
    General Stewart. If I could jump on that one, please. The 
recidivism rate remains about 17 percent confirmed recidivism. 
Most of the nation-states where we transferred detainees have 
done a really credible job in either controlling, monitoring, 
or keeping them from getting back into terrorist activities. We 
have not seen an upward trend in recidivism. Like I said last 
year when I briefed this committee, we were somewhere in the 
18, 19 percent range, and we remain about that same rate today.
    Mr. Wilson. And something that concerned me, a number of 
the detainees were sent to Yemen, but it has disintegrated. 
What has happened to the detainees in that country?
    General Stewart. If I could take that one for the record, 
please. I don't have specifics on Yemeni detainees, but if I 
could take that one for the record, I will get back to you.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Wilson. And additionally, what is the assessment of the 
relationship between Russia and Cuba?
    General Stewart. Russia continues to have a strong 
partnership with the Cubans. They continue to do out-of-area 
exercises with Cuba. The relationship is not as close as it was 
during the height of the Cold War. I think that is basic 
calculus of what is important, but I think they do well 
together.
    Mr. Wilson. Would that include port and landing rights 
within that country?
    General Stewart. Yes, Congressman.
    Mr. Wilson. And thank you very much. And appreciate both of 
you.
    Mr. Forbes. The gentleman from Washington, Mr. Larsen, is 
recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman. Thank you for the 
patience in letting me get back to my chair. Wasn't too 
obvious.
    General, can you talk a little bit more about China--and I 
apologize I wasn't here, but I was here for your opening 
statement--in discussing the three categories of territorial 
integrity. There was the first one, but then you talked about 
its projection into the South China Sea.
    Do you do strategic or operational assessments or tactical 
assessments about the intent beyond South China Sea and how 
China might be using its investment in surface and other 
modernization for projection beyond the South China Sea?
    General Stewart. So we have seen not only reclaiming some 
3,000 acres of land in the South China Sea, we also see 
increasing naval activity in the East China Sea, disputed 
territory with Japan. Building commercial capability on these 
outlying regions will ultimately mean that China will want to 
defend their economic interests.
    So we are starting to see surface-to-air missiles being 
placed in the region. We are starting to see, as I have 
indicated, increased missile technology that can counter our 
naval forces. We are seeing outposts being built.
    Mr. Larsen. Specific to investment with surface combatants 
though, do you see this as a test zone for operations beyond 
the first and second island chains?
    General Stewart. At this point, the evidence seems to 
indicate defending the Nine-Dash Line and the territorial 
disputed areas. The aircraft carriers that they are building, 
the one that they built and the second one, I believe, they 
just commissioned, will not have the same blue open ocean 
capability that our aircraft carriers have, nor will it be able 
to execute air operations the way that we use our carriers.
    So at least initially, it looks like it is localized. But 
some of the excursions now with port facilities in Africa and 
their submarine technologies suggest a much broader global 
capability in the offing. And I can talk more specifically 
about the surface capability in closed hearing.
    Mr. Larsen. Yeah, I would prefer that. I will just follow 
up and I will yield back.
    It is not just you, others out of the Pentagon and maybe 
the State Department have used the term they are reclaiming 
land. And let's be clear, they are not reclaiming anything; 
they are creating land. They are not reclaiming land that 
exists; they are creating land in violation of international 
law and we need to be clear about that.
    If we say they are reclaiming land that doesn't exist by 
creating it, it sort of gives us some justification that it was 
theirs to claim in the first place. And I think we need to 
really push back hard on this because they are creating that 
which does not exist and that which is not recognized by 
international law.
    General Stewart. I think that is a fair assessment that the 
territory does not exist. They are building territory. In the 
reclamation language, it suggests that they are falling back on 
their ancestral claim that this territory existed. It is part 
of their land domain, and so it is really just building that 
back in.
    So technically, you are absolutely right; there is no 
territory there. They are building territory. And so the 
language is not as precise as we probably should have it.
    Mr. Larsen. Yeah. All right. Thanks a lot.
    Thank you, Mr. Chairman.
    Mr. Forbes. The gentleman from Ohio, Mr. Turner, is 
recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    General Stewart, there has been much discussion about 
Russia and the Open Skies Treaty. And so I want to ask you a 
question about the Open Skies Treaty. Can you please provide 
the committee with details on the counterintelligence risks to 
the United States and our allies of a digital electro-optical, 
EO sensor and an infrared sensor, IR sensor. We are aware these 
planes fly over not only the United States but also our allies 
in Europe. And can you provide the committee with any reports 
or assessments DIA has prepared on these questions?
    Now, we have heard, of course, responses that we can just 
cover things, that we can mitigate this. But if we can, also 
the Russians can. But the concern I guess we have is what are 
we actually getting from this treaty, because Russia does get 
more because of our space assets, the clarity which we have 
versus the clarity that is offered from their access from Open 
Skies. And can't this information be used such as simple task 
such as targeting and threatening the United States?
    This is obviously something that has been a significant 
amount of discussion. I would like to know what the DIA has 
reviewed, what assessments you have done, and what the DIA has 
prepared.
    General Stewart. I have got to keep this really simple for 
me. This Open Skies discussion is, think Polaroids in the 
1960s, 1970s, and 1980s, versus 1080 high-definition capability 
as we go to a digital environment. The things that you can see, 
the amount of data that you can collect, the things that you 
can do with post-processing using digital techniques allows 
Russia, in my opinion, to get incredible foundational 
intelligence on critical infrastructure, bases, ports, all of 
our facilities.
    So from my perspective, it gives them a significant 
advantage and, yes, we both can use the same techniques. But I 
have a great concern about the quality of imagery, the quantity 
of the imagery, the ability to do post-processing of digital 
imagery, and what that allows them to see as foundational 
intelligence that I would love to have personally, and I would 
love to deny the Russians having that capability.
    Mr. Turner. Excellent. Thank you. I note many people have 
been very concerned because of then, as you just described that 
fidelity of information, how it is translated into actual risks 
to the United States.
    Now, as we were coming out, I would like to ask both of 
you, we were in the anteroom here, we were having a discussion 
about the number of exercises that Russia is having. General 
Breedlove has testified before us and has foreshadowed to our 
committee his concern of the snap exercises that Russia is 
using that have translated into actual military action and the 
inability to discern when an exercise is going on or when an 
actual military action is going to be pursued.
    As you look at this, my concern has been--I think a lot of 
people who are looking at it are very concerned that these 
exercises are not training but they are actually practicing. I 
would love to hear from both of you your thoughts on the 
Russian posture and the exercises that they are undertaking.
    General Stewart. The recent snap exercises have been 
realistic. They have been threatening. They show a level of 
sophistication that I have not seen in the 20 or so years that 
I have been watching Russian/Soviet activity. It certainly 
looks as realistic training as anything I have seen the 
Russians do.
    Now, whether that is training because of the improved 
military, improved technology, lessons learned from what they 
have seen us do, or genuinely practicing for out-of-area or 
defense of Russian sovereignty, quote ``sovereignty,'' they are 
as realistic as anything that I have seen the Russians do over 
the last 20 years.
    There is some evidence that previous snap exercises were 
great rehearsal exercises for their deployment into Syria. So 
if you take that as a model, then you can extrapolate that 
these practice, very deliberate, very thoughtful, high-
intensity rehearsals could be rehearsals for some other either 
localized or out-of-area operations.
    General Marrs. Sir, I think I would echo General Stewart's 
comments and just underscore that our impression has absolutely 
been that Russia has been evolving the art of using these 
exercises to create ambiguity and within that ambiguity make 
our task of warning against potential action more difficult.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Forbes. The gentleman from Arizona, Mr. Gallego, is 
recognized for 5 minutes.
    Mr. Gallego. Thank you, Mr. Chair.
    Lieutenant General Stewart, so what I am hearing here, 
Russia, China, Iran, North Korea, are the four national 
threats. We all agree on that. And global jihad is our growing 
transnational threat. And part of what makes answering these 
difficult is that they all require very different approaches to 
deal with them.
    So terrorism requires more special forces; China, you know, 
requires us to have a strong maritime and naval capability; the 
Russians require the ground forces; and Iran and Korea will 
continue to use asymmetrical tools to basically mess with us.
    From your perspective, is the U.S. meeting these threats 
with the right balance of resources at this point or into the 
future? And does refocus towards Asia or the proposed 
rotational brigade that we are having going through Eastern 
Europe, for example, allocate our resources smartly enough, or 
is this an area where we are probably missing the mark, now and 
maybe looking 5 years forward?
    General Stewart. So I am always hesitant to talk about the 
right force construct, because that really is an intelligence 
question, and I would defer to the service chief and the 
chairman to talk about the right force construct. Certainly in 
my conversations and in the things that we have reported, we 
have explained the totality of the threat, the challenges that 
we face. And I think, I would like to defer to the services and 
the chairman to talk about what is the right construct military 
forces.
    Mr. Gallego. I yield back.
    Mr. Forbes. The gentleman from Georgia, Mr. Scott, is 
recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    I don't know if you can do it in this setting or not, but 
one of the things that concerns me is the link between Russia 
and Iran, the new amount of money that Iran now has, obviously, 
to purchase weapons, most of which would likely come from 
Russia, and the impact that that may have on the strategy in 
Syria.
    General Stewart. One of the things that we assess, in 
addition to Russia moving into Syria to prop up the Assad 
regime, is Russia's ability to demonstrate their advanced 
weapons capabilities, to buyers in the Middle East and across 
the globe. So we certainly expect that this show of capability 
as Iran gets additional resources as they come out of the 
sanction regime could lead to Iran purchasing advanced weapon 
systems from the Russians.
    We have already seen them go through with the deal of the 
S-300. There is discussion about some of their aircraft that 
the Russians are using in the region. So I fully expect that 
Iran will use some of their resources to continue to modernize 
their military forces and that their supplier of choice will 
likely be the Russians.
    Mr. Scott. General, they already have the ability in Iran 
to hit a multitude of countries in the region, dozens of 
countries in the regions. The thing that they did not have was 
a quality targeting system and then questions about the actual 
capacity of the warhead, if you will, on the missile. Do you 
believe that our sanctions will hold in keeping them from 
getting better targeting and stronger warheads?
    General Stewart. Our sanctions in the past have not kept 
the Iranians from developing the most sophisticated ballistic 
missile capability in the region, capable of reaching all of 
their potential adversaries, capable of reaching into Europe. 
They have not only built a very robust missile technology; they 
have improved their accuracy; they have improved their 
mobility. I don't see them changing that trajectory because 
their missile capability is a way to confuse, confound our 
actions, and it is a guarantee for the regime.
    So I don't see sanctions changing that trajectory at all. I 
think as we lift sanctions, in fact, there is increase in 
likelihood that they will find ways to improve lethality, 
mobility, range of all of their missile systems.
    Mr. Scott. Gentleman, thank you for your service. I will 
save the remainder of my questions for the next hearing.
    And with that, Mr. Chairman, I yield the remainder of my 
time.
    Mr. Forbes. Gentleman yields back.
    The gentleman from New Jersey, Mr. Norcross, is recognized 
for 5 minutes.
    Mr. Norcross. Thank you, Mr. Chairman.
    General, again, thank you for your service.
    Russia has become to many a more serious threat over the 
course of the last 5 years, particularly with Putin. When we 
are making projections through intelligence, what is the 
likelihood of that leadership remaining past the end of the 
year? What does your intelligence tell you?
    General Stewart. The likelihood that Putin will remain----
    Mr. Norcross. Putin remains past the end of the year, 
because there are a number of folks who have come out publicly 
suggesting that the economy is strangling him and he is hanging 
on by a shoestring.
    General Stewart. He has a weak economy. He has demographic 
issues within the country. I see no indications that Putin will 
not survive the near term, near term being the next year or so. 
Their out-of-area operations and the casualties and the economy 
could cause some internal unrest, but when you look at his--in 
spite of the economy, you look at his popularity ratings, all 
of us should be as popular as he is viewed in Russia.
    The Russian people have a tendency to endure more suffering 
and pain than most of us are willing to accept. So I see no 
trend at this point that indicates that he will not be here 
through 2016 and beyond.
    Mr. Norcross. So when we take a look back at what caused 
the downfall of the old Soviet Union, primarily, along with 
many other issues, it had to do with the economy that drove 
that nation into the ground.
    With Iran now entering the oil market and along with the 
U.S. and international, that is a serious glut, where we are 
not hearing from any of the economic forecasters that that is 
going to rebound. That is their single driver for their 
economy. Do you see that trend continuing?
    General Stewart. That trend will continue. It will 
challenge a number of domestic issues. It will cause them to 
reprioritize some of their military spending, so they will 
spend at a lower rate. It will challenge whether or not they 
can sustain large scale out-of-area operations, but I don't see 
it in the near term as a challenge to Putin and the regime.
    Mr. Norcross. And just to follow up on one issue. You talk 
about his popularity ratings. Of course, anything that comes 
out of Russia you take with a grain of salt, has very little to 
do with the truth.
    What independent assessment do you have that his popularity 
actually does remain strong with the general public?
    General Stewart. I don't have any independent. I know what 
the Russians publish and I know that Russia also controls the 
narrative far better than we do in this country, in any Western 
country. So he is controlling the narrative, he controls to a 
great extent what the Russian people see and the conclusions 
that they draw from that, but there isn't anything that I have 
seen that genuinely refutes the belief that he is a strong 
leader. He is making Russia stand up to the West, he is 
demonstrating historical Russian desire to be a dominant world 
player.
    I don't see anything outside of the Russian narrative that 
refutes that which they are feeding the Russian people. So in 
the absence of something definitive, the Russian people believe 
he is standing up to the West, they believe he is a strong and 
forceful leader, they believe he has put Russia in the rightful 
place where they should stand on the international stage, and 
the economy is painful, but it is worth enduring, because we 
are now a dominant power.
    Mr. Norcross. The economy is also driving China in a 
direction that they are not comfortable with. In fact, we just 
read they laid off 1.2 million workers, which, given the size 
of the country, doesn't seem significant, but it is.
    Do you see the economy driving their military program at a 
slower pace than it has been?
    General Stewart. I have not seen a slower pace, though I 
suspect that if the economy continues the way it is, that they 
will have to again make some prioritization, they will reduce 
their activity, but I don't think they are walking away from 
this military modernization. It may slow, but they are not 
walking away from this military modernization. That is core to 
China's future.
    Mr. Norcross. Thank you. And I yield back.
    Mr. Forbes. The gentlelady from New York, Ms. Stefanik, is 
recognized for 5 minutes.
    Ms. Stefanik. Thank you, Mr. Chairman. And thank you, 
General Stewart and General Marrs, for your service and for 
being here today to testify.
    Like many of my colleagues, I want to focus my question on 
the implications of a resurgent Russia to the Intelligence 
Community. In addition to your testimony today, we have heard 
from senior leaders in DOD, as well as leaders in academia, of 
Russia's resurgence and military modernization in terms of 
their ability to apply this hybrid threat model in Eastern 
Europe.
    What is your assessment of how well our Intelligence 
Community is equipped to counter this hybrid threat, what 
changes have we made, and what changes do we still need to make 
in order to maintain pace with the very complex 21st century 
threats we are facing today?
    General Stewart. I am not sure that I am at all comfortable 
with the hybrid threat description. I think most nation-states 
would be really insane to take us on in a conventional 
approach, because of our superiority in our conventional 
weapons systems.
    So they are going to take us on in the information space 
and try to control and dominate the narrative, they are going 
to try to come after us in asymmetric large or small formations 
that will confuse our targeting effort. That only makes sense 
to counter the way we are structured and the way that we 
generally fight and have fought, for the last 15 or 20 years.
    So I am sometimes anxious when I hear Russia ascribed to 
creating this hybrid threat warfare, because I think it just 
makes sense to counter our superior conventional capabilities.
    Now, having said that, how do you defeat that? How do you 
get after that from an intelligence standpoint? That requires a 
significant more investment in understanding the open source 
environment, so that you can understand these little green men 
as they show up, because they are going to do some things in 
the open source that you ought to be able to exploit. You are 
going to require much more robust HUMINT [human intelligence] 
capability, and those HUMINT capabilities must be targeted 
against specific threats and specific regions. And then you 
have got to have a way to deal with the idea that an adversary 
will want to deny, degrade, deceive, destroy your information 
environment, and your information messaging.
    So if you can think your way through those, at least those 
three layers, you have got a chance to defeat the, quote, 
little green men, and then be able to apply conventional 
military capabilities against an advance.
    Ms. Stefanik. Do you feel that the Intelligence Community 
is adequately equipped to address those threats that you just 
outlined and the changing nature related to the open source 
environment, the increase in HUMINT capabilities that we need? 
What changes do we need to make going forward?
    General Stewart. So, yes, we are starting now to reenergize 
how we use open source as foundation to what we do in the 
Intelligence Community. I think for far too long we have 
invested in the high-end, high-technology collection where, in 
many cases, there is a great deal of information that we could 
use, foundational type of intelligence that is available open 
source, publicly available with limited or no expectation of 
privacy.
    So we are starting to put the model together where we can 
leverage the open source environment. We are not there yet. We 
need a good governance model, we need a model that talks about 
ethical behavior in the open source environment, what are the 
right tradecrafts to use in the open source environment, how do 
you protect private citizens', American citizens', information 
in that environment. So we are stepping our way through that 
now.
    In terms of the HUMINT aspect, there is still more that we 
need to do in refining precisely where those hard targets are 
and investing that human capability against those hard targets. 
I think we are making progress, but we are not quite where we 
need to be at this point.
    Ms. Stefanik. General Marrs, do you have anything to add?
    General Marrs. I think at this point I would just say that, 
and really it has been emphasized well by General Breedlove in 
his recent testimony, that there has been a concerted effort at 
the senior levels of the Department, not just in DOD with 
General Breedlove, the Secretary, and the chairman, but also 
working with Director Clapper on how to make these changes 
quickly. And I would be happy to talk in more detail in closed 
session on that.
    Ms. Stefanik. Great. Thank you for your testimony.
    I yield back.
    The Chairman [presiding]. Ms. Gabbard.
    Ms. Gabbard. Thank you, gentlemen. I am going to run 
through a few questions in different parts of the world, the 
first starting with Iran. I know that our intelligence in the 
past has been relatively limited or poor, and I am wondering 
now in the post-Iran deal world that we are living in how your 
intelligence picture has changed or improved, or what you are 
looking at in helping us both as we are looking at the 
implementation of the deal, but also what is happening in Iran 
overall.
    General Stewart. I hate to do this, I really do, but I 
would like to take this to a closed session.
    Ms. Gabbard. Okay. I thought you would say that.
    General Stewart. Because I think talking about where our 
footprint and where our opportunities might be would----
    Ms. Gabbard. Sure. Moving over to Eastern Europe, what 
would you say Russia's priorities are, given their actions and 
activities in Syria as well as Ukraine? And then also on the 
Ukraine side, how much and how effectively have you seen the 
Ukrainian military using their new special forces and 
unconventional tactics against the so-called Russian 
separatists there along the border?
    General Stewart. I am going to take the first question, and 
then maybe General Marrs will take the Ukrainian question.
    Russia has not lost sight of Ukraine as an important, maybe 
even vital, interest to be included as part of the Russian 
Federation. So I view their activity in Syria as 
multidimensional, one of which is, how do we take the 
international community's focus off of Ukraine while we keep it 
in this state of isolated conflict and maybe cause the 
Ukrainian regime to do something that falls outside of the 
Minsk agreement and, therefore, allows Russia to continue its 
activity. So I think part of--one of the things that I believe 
Russia has done in Syria is taken our attention off of the 
Ukraine. And I suspect that at some point they will come back 
to Ukraine either under the guise that, we have solved the 
problem for you in the West by our actions in Syria, therefore, 
you ought to lift your concerns, your restrictions, and your 
sanctions against our activities in Ukraine, and you ought to 
give us some dividend, and that dividend might be defined as, 
your hands off of Ukraine, because it is part of our sphere of 
influence.
    So I think this is a very--and maybe I am ascribing too 
much to the Russian thinking, but I think this is part of the 
grand plan that Ukraine remains in a state of conflict, but 
never lose sight of the fact that Ukraine must be part of the 
Russian sphere of influence and outside of the West's.
    General Marrs. And I think my answer to your second 
question regarding the effectiveness of the Ukrainian special 
forces has been improved and, I think, led to an increased 
stability--or increased agility on the part of Ukraine to 
respond to separatists' actions.
    Ms. Gabbard. Okay. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. And thank you, 
Generals, for being here today.
    I have two areas of concern: one is obviously the foreign 
fighters as they flow back and forth from Syria and Iraq. 
General Breedlove was quoted, I think just recently in regards 
to his testimony, you know, the fact that, you know, the daily 
flow into Europe, you know, they are using that disguise of 
refugees coming in, and they are really taking advantage of 
that in Europe, but also possibly here in the United States.
    Can you comment in regards, do we have a good handle on 
that or not?
    General Stewart. In Europe, I am not sure that there is a 
great handle on how you sift through potential foreign 
fighters, jihadists that are coming in through this mass 
migration. So that is an issue, I think, there.
    I am not concerned about the U.S., because of the 
capabilities that we have within our homeland defense. The 
things that we can do with the biometrics and the screening 
process makes it far less likely for them to just come across 
the border hidden within a mass wave of migrants.
    So I think it is less of a challenge here. It is not a 
completely diminished challenge, but I think it is far less 
here than it is in Europe.
    Mr. Nugent. But wouldn't that be the case--I mean, 
obviously that is true if they are coming through a point of 
entry in the United States----
    General Stewart. Right.
    Mr. Nugent [continuing]. But if they are coming across an 
open border area, obviously we don't have the ability to do 
that kind of screening, correct?
    General Stewart. Correct. Open borders, if they don't come 
through, I don't--I don't put that at the high end of my threat 
concern.
    Mr. Nugent. Okay.
    General Stewart. And let me tell you where I put my threat 
concern at with migrants. My threat concern with migrants are 
the migrants who are legitimately moving to get out of a crisis 
environment. They get to a nation-state, whether it is here or 
in Europe.
    They get marginalized, they get isolated, they get 
dissatisfied, they feel disenfranchised, they don't have 
opportunity, and they become a source to be recruited and 
radicalized, because now they view their situation as worse now 
than it was in the past.
    Mr. Nugent. You are seeing that, you know, in Germany and 
others where they are actually going and getting a one-way visa 
back to the country they came from, whether it is Afghanistan 
or Iraq or Syria, because they feel marginalized within the 
country they have gone to, and I get that. I mean, we see that 
across the board where people can be self-radicalized for 
whatever reason they may harbor within their hearts, but I 
worry about those that have the military experience, and I am 
sure you do too, of having served in combat.
    It is a big difference between reading about it and 
actually doing it. So I am concerned that--it seems like that 
is an issue that obviously needs more discussion.
    But getting to Russia in particular, I would just tell you 
that, you know, from the--you know, the approach that we have 
taken, and one of the generals that sat here and testified in 
front of us said, you know, we are hugging the bear. We thought 
that we could embrace Russia and live with them in a way that 
we are going to have mutual agreement. And obviously in their 
reaction and what they are doing in the Baltic States, what 
they have done in Crimea shows that that was a miscalculation.
    Now, I don't know if it was a miscalculation because of our 
intelligence ability to let our executive branch know, or if we 
told them and they just didn't act. Can you give me some--as we 
relate to the State Department back and forth?
    General Stewart. I think maybe some of this is a little bit 
of revisionist history----
    Mr. Nugent. Okay.
    General Stewart [continuing]. To be quite honest. Russia--
Russia is carrying out and acting today in the same way that a 
nation-state----
    Mr. Nugent. Well, I agree, but did we not try to take a 
different approach with Russia? As one of the generals that sat 
here and spoke about it, we were trying to hug the bear.
    General Stewart. Absolutely.
    Mr. Nugent. We were trying to get them to--we thought we--
--
    General Stewart. And wouldn't that have been a----
    Mr. Nugent [continuing]. Had a different reset.
    General Stewart. Wouldn't that have been a positive thing 
to do----
    Mr. Nugent. Oh, absolutely, but----
    General Stewart [continuing]. If we could have gotten the 
Russians to----
    Mr. Nugent [continuing]. But did we honestly--did they have 
the intel to give them the proper perspective to know that, 
hey, listen, that may or may not happen? That is all I am 
asking.
    General Stewart. I think we had a pretty good sense that 
Russia would act in its interests, that Russia would be 
concerned about being encircled and isolated by Western forces, 
that Russia would revert back to thinking--going back to 
czarist time about their role in the European continent. So all 
of that was available for folks to look at.
    The approach that we took, whether it is to try to get 
Russia to act in a more responsible way within the 
international community, I don't know that any of us could have 
predicted that Vladimir Putin would come to power and would 
change that trajectory that was set by those leaders who 
preceded him. So it always looks better in retrospect----
    Mr. Nugent. Always.
    General Stewart [continuing]. But I certainly think the 
policy of trying to get Russia to act in a different way than 
it had, in the competitive way that it had acted over the last 
previous 50 years, was probably a positive thing.
    Mr. Nugent. Mr. Chairman, I appreciate it and I yield back. 
Thank you, General.
    The Chairman. Mr. Ashford.
    Mr. Ashford. Thank you. Thank you, General, General.
    I have two different questions on two different subjects. 
And I just go back to your comments about ISIS and the answer 
you just gave. I just need to fully understand this.
    ISIL will probably conduct additional attacks, attacks in 
Europe and attempt to direct attacks in the United States 
homeland in 2016. I think that is, at least my constituents, 
what their fear is, that it won't--the lone attacker will 
probably give way to directed attacks. How do we--I am sure you 
have answered this already, but could you do it again? How do 
we address that? We know it is coming. We think it is coming, 
anyway. We strategize around it. What is our strategy? What do 
I tell my constituents about how we are going to direct----
    General Stewart. I can tell you what the Intelligence 
Community will try to do: get as clean an understanding of the 
foreign fighters who have gone into Iraq and Syria to support 
ISIL; try to get the best appreciation for those who are flown 
back, and we have some techniques that has been very helpful; 
and most importantly, to make sure as a community, we share, 
not just across the defense intelligence community, but our law 
enforcement communities and all those who will see activities. 
That really is the key. If we can share this information that 
each of us have in our different silos, and I think that has 
gotten a lot better over the last several years, we have a 
great opportunity to counter some of these threats and 
challenges coming from overseas. So----
    Mr. Ashford. So it is train--sorry.
    General Stewart. I am sorry?
    Mr. Ashford. No. I am sorry. Go ahead.
    General Stewart. We will not stop the lone wolf attackers. 
That someone is going to get radicalized and someday pick up a 
weapon and go after Americans, that is almost impossible to 
stop, but we can certainly get a good sense of those who are 
acting overseas, those who have got military training, and 
those who we are seeing indications that they are either coming 
back or trying to influence individuals in this country.
    Mr. Ashford. And I know Congress in various ways has 
attempted to address the refugee issue, the visa issue. Aren't 
those legitimate concerns? I mean, to me I, as a Member who 
cosponsored a bill on refugees, it wasn't that we didn't want 
refugees to come here, isn't it reasonable that the flow of 
ISIL-related individuals back into Europe or into the United 
States through an existing program that is legitimate, I mean, 
you know, refugee program or visa program, isn't that a valid 
concern that we must have?
    General Stewart. Absolutely legitimate, absolutely valid 
concern. Where it rises to the level of most dangerous threats 
for me, we have mechanisms in place, we have procedures in 
place that mitigates many of those concerns. So those that are 
coming through established borders, ports of entries and the 
like, not as great a concern. Could some come through borders 
where we don't have control? Absolutely. How high would I put 
that on the list of threats? Something to monitor, but not 
terribly high on my list.
    Mr. Ashford. All right. And that is--for example, we don't 
stop a refugee program or we don't stop a visa program, but we 
think about it as something that could be an avenue of flow 
of--where there could be a flow of individuals that could, in 
fact, lead an attack.
    I mean, my concern in listening to this for all year, year 
and a half now almost, is this sense that they are training 
people in Syria, they have sophisticated abilities, they 
haven't used their cyber ability apparently yet, but, like, 
they might or could in the future, but that when you train 
somebody and they are radicalized ab initio, they are 
radicalized there; it is not radicalizing a lone wolf in 
Nebraska, it is--and that person could come back into Europe or 
the United States or anywhere else, and they are doing it 
already in other parts, obviously, Libya and other parts of the 
world, and they could put together a force of like-minded 
people and, you know, attack us. That is not an--that is a 
concern, isn't it? Obviously, you have said it is, but----
    General Stewart. That is a concern and that is a plausible 
scenario.
    Mr. Ashford. And then my next question, thank you, is 
related to intelligence gathering and cyber and all these very 
high-tech fields that you have done a great job, I think, in 
elevating, and it is--but how do we in a general sense, how do 
we recruit our young people to do that work? How do we get them 
interested in not being in the private sector right away 
making, you know, bundles of money, and going into work for 
you? How do we do that, in your view? What are the recruitment 
tools?
    General Stewart. Yeah. I am going to start a little bit, 
and then maybe General Marrs will pick this up.
    I have found no problems with the marines, who are genuine 
patriots, who had great technical skills, who are willing to do 
this business in cyberspace when I was associated with U.S. 
Army Command. None of them were leaving because they could get 
paid more by any of the industry giants. They did this business 
because they were true patriots who wanted to serve their 
country.
    Where I found folks who left, was because we didn't have 
any well-designed construct to retain them and allow them to 
continue to do this highly skilled work that they wanted to do. 
In spite of bonuses, we tended to move them off to do what they 
viewed as nontrivial missions. And so they weren't leaving for 
money; they were leaving because they couldn't get to do the 
things they wanted to do.
    Mr. Ashford. Thank you, General. I am way over time, so----
    The Chairman. General Marrs, is there anything you wanted 
to add on that question right quick?
    General Marrs. Sir, I guess I would just say, having had 
some opportunities to be a consumer of cyber skills along the 
way, that absolutely the more we can get out early on and, I 
guess, expose our young folks to what is possible within this 
community, once they see that and the mission that is involved, 
it is pretty easy at that point to bring them on.
    The Chairman. Okay. The only thing I would add, General, is 
to the extent we can help in these career tracks, we want to be 
helpful. A lot of it is not within--or traditionally within the 
thing that we decide, but there are some aspects of this, and 
we want to be helpful in just what you said.
    Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. And thank you, 
gentlemen, for your testimony and your service.
    General Stewart, you mentioned, you know, the transnational 
threats, the ISIS threat, you know, certainly didn't have 
happen overnight. I talk about it as a generational threat. I 
don't think it is going to be defeated overnight.
    In your best military judgment, you know, how long do you 
think we are going to be dealing with this type of threat? 
Again, it is right now ISIS, but it comes in many jihadist 
forms and affiliates in these ungoverned spaces. How long do 
you think we will be dealing with this as a major threat, 
requiring military capabilities, you know, to address the 
threat?
    General Stewart. Yeah. That is a terrific question. We have 
spent a little bit of time recently looking at this particular 
threat, the ISIL, the center of gravity, what are their 
critical vulnerabilities, so that we could take this particular 
threat down. But the reality is that it is based on a very 
extreme Salafist ideology, and unless there is a narrative that 
counters that ideology, it will reemerge someplace else in some 
other form.
    That is probably not an ideology that we in the West can 
counter. We need our partners in the region who believe in the 
broadest sense of Islam and what it brings to the table to have 
this dialogue, this conversation about how do we--this very 
marginalized group.
    When you take apart the 1.6 million Muslims and you whittle 
it down to this, Salafist jihadist, movement, you are probably 
talking less than a couple hundred thousand folks, who are as 
great a threat to Islamic regimes.
    In fact, in many cases a greater threat to Islamic regimes 
than they are to the West. So we need them to counter that 
ideology and offer an alternative view of Islam that allows 
people to feel like they are part of a society that is looking 
to take care of their citizens, to enhance their opportunities, 
and, oh, by the way, practice their religion as they see fit.
    Ms. McSally. But is it safe to say that is a whole-of-
society approach, whole-of-government, that there still might 
be a military, you know, potential that we need to be prepared 
for, given this threat? It is not going to go away in the next 
year or two, I guess, is what I am trying to say.
    General Stewart. It is a long-term challenge that we always 
have to maintain that military capability to take out their 
command and control, take out their leadership, take out their 
networks that finance----
    Ms. McSally. Wherever they are.
    General Stewart. Wherever they are.
    Ms. McSally. Whether that is Libya, Iraq, Syria.
    General Stewart. Absolutely.
    Ms. McSally. Right. Moving on again, my time in the 
military, you know, one of the biggest things we were concerned 
about was terrorists and WMD [weapons of mass destruction] 
coming together. And, you know, we have seen the desire, threat 
equals, you know, capability plus intent, of ISIS to acquire 
biological or chemical weapons or to recruit individuals who 
have those capabilities to create them.
    Can you comment on any concerns you have about the nexus of 
ISIL and WMD?
    General Stewart. Neither ISIS nor Al Qaeda has walked away 
from their desire to develop chemical, biological capability 
that they can use against the West.
    Ms. McSally. Got it.
    General Stewart. They have retained that intent.
    Ms. McSally. And as far as the capability, can you comment 
on that, or should we wait until the classified?
    General Stewart. I think we could talk about it more fully 
in the classified setting, but they will recruit expertise who 
can bring a range of capabilities to ISIL, whether that is 
financers----
    Ms. McSally. Right.
    General Stewart [continuing]. Media consultants, or 
chemical experts.
    Ms. McSally. Is it fair to say the difference between Al 
Qaeda, where they were trying to maybe acquire it where it 
existed, whereas ISIS is trying to recruit individuals with the 
expertise to potentially home-grow it?
    General Stewart. There is some indication that ISIL is 
working very hard to develop their own capability.
    Ms. McSally. Thank you.
    Total different topic. Vice Admiral Branch, the chief of 
Naval Intelligence, and since November of 2013, he hasn't had a 
security clearance due to an ongoing investigation. A number of 
our colleagues wrote a letter to Secretary Mabus about this 
last week.
    I can't picture--again, we are not going to weigh in on the 
investigation or anything like that, but being in a position 
where you have oversight of Navy intelligence, but you have no 
security clearance for over 2 years, I can't picture him not 
being able to be in meetings or provide oversight.
    Can you share, General Marrs, how that impacts your day-in-
and-day-out interaction with the naval intelligence operation?
    General Marrs. I think day in and day out, our partnership 
is very, very strong at the senior leadership level, but----
    Ms. McSally. But he can't be in the room.
    General Marrs. And I will say for the individuals who 
represent him, but I will absolutely agree that it is not an 
optimal situation for the Navy.
    Ms. McSally. Okay. Thank you.
    General Stewart, do you have anything to add? Okay. Thanks.
    And one last topic on the reports coming out of CENTCOM 
[Central Command] where about 40 percent of analysts are saying 
that they feel that the integrity of the analysis is 
potentially not pure. I don't know how better to say that. 
General Stewart, do you have any----
    General Stewart. I am so glad you asked that question, 
because my staff has been trying to keep me from not commenting 
on this, and I desperately want to comment on it, because I 
think the assertion that somehow 40 percent of that workforce 
either represents the totality of our analytic enterprise or 
truly represents that their judgments are not being accounted 
for disturbs me more than I can state.
    We have a very robust process of thinking through the 
analytic effort, citing your sources, validating and vetting 
your sources. Opinions count slightly, only because you are a 
three-star, your opinions count. Analysts must apply the 
analytic rigor that is necessary to deliver that content in a 
compelling way to their commander.
    The 40 percent, and I saw this number distorted to 400, is 
absolutely gross distortment of the challenges that they face 
down at CENTCOM. It undermines the great workforce that we have 
down there at CENTCOM, who every single day are giving their 
best judgment to that commander about how activities and 
actions are going on the CENTCOM AOR [area of responsibility].
    Ms. McSally. But there is an investigation ongoing.
    General Stewart. There is an ongoing----
    Ms. McSally. So clearly there is some----
    General Stewart [continuing]. Investigation.
    Ms. McSally. Yeah. Okay.
    General Stewart. We neither control the scope nor the pace 
of that investigation. And it is remarkable that folks have 
named names in an investigation prior to that investigation 
being completed. And if these individuals are exonerated, no 
one will retract the really distorted reporting that they have 
had in this situation.
    Ms. McSally. I am way over my time. So thank you. And thank 
you, Mr. Chairman.
    General Stewart. I thank you for giving me an opportunity--
--
    Ms. McSally. Absolutely.
    General Stewart [continuing]. To vent on that one.
    Ms. McSally. Tell me how you really feel.
    The Chairman. General, it is true, however, and I have read 
that report myself cover to cover, that they are reflecting in 
the survey data that there is more question at CENTCOM than the 
other combatant commands about whether the analysts believe 
that the work they do is altered in some way. And I understand 
your point about the 40 percent. I have, again, looked through 
all those charts, and I don't want to get into too much 
specifics here, but there is a reason to have an investigation.
    And as I have said, we are working with the Intelligence 
Committee as well as Defense Appropriation Committee, being 
respectful of the IG [Inspector General] investigation, but it 
is a matter of interest for this committee if, in fact, 
intelligence is being shaped in some way to please superiors, 
whether they be military or political superiors. So we are also 
trying to be really careful and not interfere with the IG 
investigation, but to say there--you did not say this, and I am 
not trying to put words in your mouth either. To say there is 
not an issue at CENTCOM, I think, would be also a 
misrepresentation of what this survey showed.
    I am happy for any further comments you would like to make.
    General Stewart. Mr. Chairman, there is an issue there. And 
the only thing that I have asked folks to do is let the 
investigation play out. Let's do a thorough investigation, 
let's understand what the real issues are down at Central 
Command, and not impugn the entire analytic effort of the 
defense intelligence enterprise----
    The Chairman. No.
    General Stewart [continuing]. Which is what some people 
have done.
    The Chairman. Yeah.
    General Stewart. And that is disturbing when you are trying 
to lead a workforce that have the challenges that we talked 
about here, and yet they are questioned and challenged and 
judged poorly in the media and by a number of other 
individuals. It just is unfair to that workforce, it is unfair 
to the leadership.
    The Chairman. No. I think that is right. And you are 
perfectly right to defend the workforce that is doing 
incredibly difficult work every single day. And I think you are 
also exactly right that this investigation, both the IG 
investigation and what we are doing among the committees, ought 
to proceed, but as is appropriate for intelligence, it ought to 
proceed not in the public eye. And I think that, in my opinion, 
those are perfectly valid points to make. At the same time I 
would say, but they have got to proceed, because there is an 
issue there that needs to be pursued.
    Mr. Walz, thank you for letting me take a little of your 
time--delay your time a little bit. The gentleman is 
recognized.
    Mr. Walz. Thank you, Chairman. And thank you both for being 
here.
    Again, I will try and get up to that line where I 
understand some of this may have to go into the classified, but 
after the 2009 Georgian incursion by the Russians, it became 
apparent to them, it looks like, that their armor wasn't where 
it needed to be, and there has been talk of how much they put 
into that and how much they have done.
    I am curious about what you are able to gather from this, 
because we can gather that they have new main battle tanks and 
things like that, but putting an armored vehicle into the field 
is one thing, keeping it there is quite another.
    I am more interested in what do we know about their 
maintenance or logistics, how do they do that, and are they 
doing it to a level that should be of concern?
    General Stewart. Yeah. I think we probably should talk 
about this in a closed hearing, because they have 
systematically modernized, not just the weapons system, how 
they deploy and employ those forces and sustain those forces.
    Mr. Walz. Very good. No. I appreciate that.
    The only other thing I would say as we are talking 
worldwide threats and those things, General Stewart, and I was 
out to visit you, and several of us, where you made a statement 
that was pretty profound and stuck with me.
    Some of our challenges worldwide and security challenges do 
start here at home, whether it is budgetary or, as the chairman 
has made a calling of, and I totally agree with him, on 
acquisition reform. And I think it is always important whenever 
we are discussing these capabilities what you need, we do have 
a lot of influence in that.
    And your statement candidness on acquisition reform is 
something I repeat often and the chairman has pushed it. And I 
know this is a very hard lift, but I just wanted to reassure 
you, it is sinking, and it is obvious from the leadership and 
the chairman and many on this committee. So I thank you for 
that and do understand that as you have to think about all the 
things that are being asked about here, it does come back home 
to budgetary, it does come back home to acquisition, how fast 
you can field things you need to field. So I appreciate that 
help.
    I yield back, Chairman.
    The Chairman. I thank the gentleman. Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman. Thank you both for 
being here. I always appreciate those who give their lives to 
the cause of protecting their fellow human beings.
    General Stewart, you know, there are obviously a lot of us 
that are concerned that we seem not to be having the kind of at 
least observable progress on ISIS, at least in the timeframe we 
would like to see it. I know everybody feels the same way. But 
in light of that, what do you consider to be the Islamic 
State's center of gravity? What are we doing to attack that 
center of gravity? What is the strongest thing that we can do 
against their weakest and most vulnerable and most critical----
    General Stewart. So we define the center of gravity, the 
source of their power as either the virtual or the physical 
caliphate. So the existence of a caliphate, the narrative that 
the caliphate exists is a draw to forces.
    Mr. Franks. Yep.
    General Stewart. It is a draw to that ideology that, we are 
going to be part of this final caliphate and this final battle. 
So the caliphate must be destroyed. The notion, the narrative 
of the caliphate must be destroyed. We can go after that in a 
number of ways. You have got to go after the leadership. We 
can't take pressure off the leadership and we can't take 
pressure off of the middle management, the bureaucrats who run 
this proto-state we call ISIL and its caliphate. You have got 
to go after the narrative, as we talked about earlier. You have 
got to go after its financial networks. These are all critical 
vulnerabilities.
    And you are seeing some increased activity against those 
financial nodes and networks, how they generate cash, because 
if they are going to act like a proto-state, they are going to 
have to generate cash, they are going to have to pay employees, 
they are going to have to run the machinery, they are going to 
govern like a state, and so you can start going after those 
things that will allow them to act as a proto-state, act as a 
caliphate. Leadership, command and control, financial networks, 
infrastructure, logistics nodes, and all those things are 
legitimate targets, and we are seeing quite a significant 
increase from Central Command and others in going after those 
very specific nodes.
    So the caliphate is under attack. How that will play out 
over the next 12 to 18 months will be where we will focus our 
effort to understand the impact that we are having going after 
those center of gravity and defeating the idea of a caliphate, 
both in the physical and virtual space.
    Mr. Franks. Well, I was glad to hear you mention going 
after the narrative. That is more of a strategic approach, in 
my judgment, because, you know, tactically we usually prevail, 
but oftentimes in the effort to try to prevent this motivation 
that the discussion the caliphate prevents, sometimes we don't 
address this on a strategic level. So I am glad to see. I know 
it is difficult for a military force to have a psychological 
approach, but it nevertheless is pretty important when a group 
feels that they are somehow transcendentally justified in doing 
what they are doing. It is important to attack that, and I 
appreciate you saying that.
    Let me shift gears, if I could, and probably, given the 
time I have, need to address this to both of you. What do you 
consider the importance of Iran's ballistic missile program to 
its military strategy in the wake of the Iran deal, or the 
JCPoA [Joint Comprehensive Plan of Action]? And in your 
assessment, how likely is it that Iran will continue to move 
forward with the development and testing of these systems 
despite threats of new sanctions?
    General Stewart. Iran's missile program is one of the 
centerpieces of defense of their regime. They have built a very 
robust missile capability in the face of 30-plus years of 
sanctions. There is no indication that they are going to walk 
away from their ballistic missile technology and capability. 
They will continue to improve their ranges, they will continue 
to improve lethality, they will continue to improve 
maneuverability, and I don't see that changing any time under 
any sanctions regime.
    Mr. Franks. Well, it is not exactly encouraging, but I 
think you are absolutely right.
    General, did you have any----
    General Marrs. Sir, I would just add that absolutely Iran 
sees its ballistic missile capability as key to its power 
projection. And I guess of additional concern is what they have 
stated publicly is their intent to conduct another space launch 
potentially as early as this year, and that could unveil a 
capability that may have intercontinental range.
    Mr. Franks. Well, I will try quickly here. Do you believe 
that Russia is attempting to supplant American leadership in 
the Middle East with a hegemony led by kind of a Moscow-Tehran 
combination?
    General Stewart. In a word, yes.
    Mr. Franks. All right. That is a fast answer.
    Thank you very much, both of you. And thank you, Mr. 
Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Having served in Iraq with the United States Marine Corps, 
the only thing--you know, I walked away opposed to the 
stability operations, or what we used to call nation building, 
but now I have concluded that the only thing worse than that is 
doing regime change without a follow-on stability operation or 
nation building, and that is what we have today in Libya. And I 
am just very concerned that the vacuum that has been created 
through regime change has given a real anchor for ISIS or for 
these extremist groups to operate out of.
    To what extent do you see them moving out of Raqqa in Syria 
and over to Libya?
    General Stewart. The specifics of any forces, ISIL forces, 
moving to Libya, I think we should talk about in a closed 
hearing.
    Mr. Coffman. Okay.
    General Stewart. However, the Libyan branch of ISIL is the 
most capable and the next most dangerous branch of the ISIL 
enterprise.
    Mr. Coffman. Okay. What I saw when I was in Iraq in 2005-
2006 was that the Sunni Arabs felt pushed out of the Baghdad 
government, the Shia-dominated Baghdad government. And I think 
it is hard for us to understand, but they have such a 
vertically integrated form of government, that all the 
decisions really come out of Baghdad. I mean, there is no 
revenue at the local or the provincial level, and so when you 
use the term ``pushed out of the government,'' it is far more 
significant than anything that we can comprehend here. And that 
the Kurds had insisted on a provision in their constitution 
whereby they could form the semiautonomous regions. And when we 
look at where ISIS was able to come into Iraq and easily take 
over areas, they were all the Sunni-dominated areas of Iraq. 
And I would hope that we could push our government to try and 
influence the Baghdad government to allow this formation of a 
semiautonomous region in a post-ISIS Iraq, but going to where 
we are right now, it would seem that we are making gains in 
pushing back the ISIS in Iraq. We have certainly just taken 
Ramadi, albeit probably destroyed it, take it.
    Where do you see--what is the prognosis for Mosul right 
now?
    General Stewart. I think every effort is being made to get 
after Mosul this year. As you know, urban operations is 
complex, it is fought in multiple dimensions. So isolating 
Mosul is the first step, whether or not the Iraqi Security 
Forces are ready to go in and systematically clear an urban 
environment, a large urban environment. I don't believe that 
they have the capability. They will need a significant amount 
of help from coalition partners. I don't know that they will 
ask for that help. So I am not as optimistic about seizing and 
clearing Mosul in this year, as I have read recently. We can 
begin the operations, we can begin to isolate, we can do some 
of the preparatory work, but securing, taking, and securing 
Mosul in the next 8 to 10 months is not something I am seeing 
in my crystal ball.
    Mr. Coffman. Okay. Lastly, and this is to both of you, and 
that is, when I look at ISIS, they have maybe three streams of 
revenue coming in: one is through contributions from radical 
Islamists throughout the Islamic world; the second one is 
industries that they have taken over, whether petroleum or 
cement; and then the third is their ability to tax economic 
activity in the areas that they govern. To what extent have we 
compromised those three sources of revenue?
    General Stewart. I think we have made a pretty significant 
dent in their oil revenues by targeting some of the transport. 
I think we have done significant dent in their cash reserves by 
striking some of those targets. The taxing of locals, I am not 
sure how successful we have been.
    And your third area was?
    Mr. Coffman. Well, I think contributions coming----
    General Stewart. Contributions.
    Mr. Coffman. Yeah. I think as long as they are seen as 
ascendant, that money is going to flow. And I think the fact 
that we have reversed some of that perception, I think, has 
been helpful.
    General Stewart. Reversing the ascendency will reduce the 
amount of support, external support, that they get.
    Mr. Coffman. General.
    General Marrs. The only thing I would add is that success, 
I think, against both the oil infrastructure and the banking 
facilities is a result of just some excellent Intel Community 
collaboration.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Let me just touch on a couple things right 
quick. Afghanistan, we haven't talked about. To what extent do 
you believe that a significant terrorist threat to the United 
States would re-form in Afghanistan without constant pressure 
being applied against it, whether that be Al Qaeda or ISIS?
    General Stewart. There is no doubt in my mind that if there 
is not constant pressure on either ISIL in the Uruzgan Province 
or remnants of Al Qaeda, that they will continue to pursue 
targeting U.S. and Western interests from safe havens in 
Afghanistan.
    The Chairman. Okay. General Marrs, do you have a different 
view?
    General Marrs. No, sir.
    The Chairman. Okay. Press reports indicate that an ISIS 
operative was captured, and hopefully, of course, he will be 
interrogated. My question is have interrogations been a 
significant source of intelligence that have helped prevent 
terrorist attacks in the past, and has that source of 
intelligence diminished in recent years?
    General Stewart. Interrogation, as I understand it from the 
Army Field Manual, which is about establishing a rapport with 
the detainee so that you can get truly valuable intelligence, 
has worked. I don't know if I can quantify how much it has 
prevented terrorist activity, but that type of technique works, 
it gets good insights that lead to other operatives, it gives 
us insights into how the network operates. So there is value 
there, and ultimately that could prevent terrorist activity.
    The, quote, enhanced interrogation techniques are a 
guarantee of having a detainee tell you what they want--what 
you want to hear in order to stop the pain.
    The Chairman. Really what I was getting at is we hadn't 
been doing much questioning, because we hadn't had many 
captures in recent years. Isn't that right?
    General Stewart. So you may have noticed an uptick in 
special operations intended to capture, interrogate, and gather 
materials that will give us greater insights into the network, 
and I think that will pay dividends in the long term.
    The Chairman. Yeah. I think a significant source of our 
information, we have not had in recent years, we ought to--
hopefully will have it, that is part of the reason--this is not 
you all's issue, but we asked the administration to provide a 
plan on how they intend to deal with detainees that they 
capture in the future. It was one of the omissions in the 
report that we received last week.
    That is all I have. Susan, do you have anything else? Okay.
    Thank you both for being here. And this will conclude the 
open session of our hearing, and we will see you all 
momentarily upstairs. The hearing stands adjourned.
    [Whereupon, at 11:50 a.m., the committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             March 2, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 2, 2016

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 2, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. Jim Clapper, the Director of National Intelligence, 
recently discussed potential threats being posed by advancements in 
bio-technology, including an ability to edit human-genes, so called 
``gene-editing.'' I am concerned about these types of technologies 
falling into the hands of terrorist groups or even lone actors. Can you 
describe for the committee the national security threats being posed by 
these and similar bio-technologies?
    General Stewart. [The information referred to is classified and 
retained in the committee files.]
    Mr. Wilson. A few weeks ago General Campbell testified before this 
committee that that Afghan leaders are ``skeptical we will continue to 
be there'' beyond the end of 2016. Additionally, Campbell said 
President Obama's plan to draw down to 5,500 troops by the end of 2016 
from the 9,800 service members in Afghanistan now, would leave the 
United States with ``a very limited ability'' to conduct its 
counterterrorism operations and its mission to train, advise and assist 
Afghan security forces. From both of your perspectives could you please 
describe what are the security risks associated with a further drawdown 
of U.S. forces to 5,500 by the end of 2016, and what key indicators 
will you look for over the next several months to inform policymakers 
on force levels and drawdown timelines?
    General Stewart. [The information referred to is classified and 
retained in the committee files.]
    Mr. Wilson. In his January 2016 report, the Special Inspector 
General for Afghanistan Reconstruction observed that, ``the Taliban now 
controls more territory than at any time since 2001.'' What is DIA's 
estimate of the extent of Taliban control in Afghanistan?
    General Stewart. [The information referred to is classified and 
retained in the committee files.]
    Mr. Wilson. A few weeks ago General Campbell testified before this 
committee that that Afghan leaders are ``skeptical we will continue to 
be there'' beyond the end of 2016. Additionally, Campbell said 
President Obama's plan to draw down to 5,500 troops by the end of 2016 
from the 9,800 service members in Afghanistan now, would leave the 
United States with ``a very limited ability'' to conduct its 
counterterrorism operations and its mission to train, advise and assist 
Afghan security forces. From both of your perspectives could you please 
describe what are the security risks associated with a further drawdown 
of U.S. forces to 5,500 by the end of 2016, and what key indicators 
will you look for over the next several months to inform policymakers 
on force levels and drawdown timelines?
    General Marrs. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                  QUESTION SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. To what extent does the Open Skies Treaty's 
provision that all information collected on Open Skies flights be 
shared with all parties to the treaty mitigate the counterintelligence 
threat posed by potential Russian flights with a new, electro-optical 
sensor?
    General Stewart. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. COFFMAN
    Mr. Coffman. How well are defense intelligence missile warning 
capabilities postured to address the nation-state threats highlighted 
during the hearing (Russia, China, Iran and North Korea)?
    General Stewart. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MOULTON
    Mr. Moulton. Given close, longstanding cooperation between the U.S. 
and U.K. and challenges in the Straits of Gibraltar, how does Gibraltar 
figure into Department of Defense plans to counter maritime threats, 
including enhanced Russian naval activities?
    General Stewart. [The information referred to is classified and 
retained in the committee files.]
    Mr. Moulton. Given close, longstanding cooperation between the U.S. 
and U.K. and challenges in the Straits of Gibraltar, how does Gibraltar 
figure into Department of Defense plans to counter maritime threats, 
including enhanced Russian naval activities?
    General Marrs. [The information referred to is classified and 
retained in the committee files.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
